TABLA DE TASAS Y CARGOS DEL CONTRATO DE TARJETA DE CRÉDITO
CARGOS DE TASAS Y CARGOS DE INTERESES
Tasa Efectiva Anual (APR)
para Compras
APR para My Chase
LoanSM

14.99% hasta 23.74%. Esta APR variará con el mercado, basado en la tasa Prime.a
Las APR introductorias con una duración variable pueden estar disponibles en algunas cuentas.
14.99% hasta 23.74%. Esta APR variará con el mercado, basado en la tasa Prime.a
Es posible que ocasionalmente estén disponibles en algunas cuentas ofertas promocionales con APR fijas y
duraciones variables.

APR para Transferencias 14.99% hasta 23.74%. Esta APR variará con el mercado, basado en la tasa Prime.a
de Saldo
Las APR introductorias con una duración variable pueden estar disponibles en algunas cuentas.
APR para Adelantos de
Efectivo

24.99%. Esta APR variará con el mercado, basado en la tasa Prime.b

APR de Penalización y
Cuándo se Aplica

Hasta 29.99%. Esta APR variará con el mercado, basado en la tasa Prime.c
Podemos aplicar la APR de Penalización a su cuenta si usted:
• no realiza un Pago mínimo a más tardar en la fecha y hora de vencimiento o
• si nos realiza un pago que se devuelve sin pagar.
¿Cuánto tiempo se aplicará la APR de Penalización?: Si aplicamos la APR de Penalización por cualquiera de
estos motivos, la APR de Penalización podría permanecer vigente indefinidamente.

Pago de Intereses

Su fecha de vencimiento será de un mínimo de 21 días después del cierre de cada ciclo de facturación. No le
cobraremos intereses en compras nuevas si paga el saldo total o el saldo de ahorro de intereses a más tardar
para la fecha de vencimiento cada mes. Vamos a comenzar a cobrar intereses en transferencias de saldo y
adelantos de efectivo en la fecha de la transacción.

Cargo Mínimo de Interés Ninguno
Consejos de la Consumer Para obtener más información acerca de los factores a considerar cuando solicite una tarjeta de crédito o su
Financial Protection
uso, visite el sitio Web de la Consumer Financial Protection Bureau en
Bureau
http://www.consumerfinance.gov/learnmore.

CARGOS
Cargo de Membresía
Anual
Cargo de My Chase
PlanSM
(cargo financiero fijo)
Cargo por Transacciones
Transferencias de Saldos
Adelantos de Efectivo
Transacciones en el
Extranjero
Cargos de Penalización
Pago Atrasado
Sobrepasar el Límite de
Crédito
Pago Devuelto
Cheque Devuelto

Ninguno
Cargo mensual de 1.72% de la cantidad de cada transacción de compra elegible o cantidad seleccionada para
crear un My Chase Plan. El cargo de My Chase Plan será determinado en el momento en que se cree cada My
Chase Plan y seguirá siendo el mismo hasta que el saldo de My Chase Plan se pague en su totalidad.d
$5 o 5% de la cantidad de cada transferencia, lo que sea mayor.
$10 o 5% de la cantidad de cada transacción, lo que sea mayor.
3% de la cantidad de cada transacción en dólares de EE. UU.

Hasta $40.
Ninguno
Hasta $40.
Ninguno

Nota: Es posible que esta cuenta no sea elegible para transferencias de saldo.
Cómo Calculamos su Saldo: usamos el método del saldo diario (incluyendo nuevas transacciones). Consulte la sección de Cargos por Intereses en este Contrato para más
detalles.
Derechos de Facturación: la información sobre sus derechos para disputar las transacciones y cómo ejercer esos derechos se incluye en este Contrato. Consulte la sección
de Sus Derechos de Facturación para obtener detalles completos.
Cargos de Penalización: una sola violación de cada tipo no excederá los $29. Sin embargo, si otra violación del mismo tipo se produce dentro de los seis períodos de facturación
mensuales siguientes, cobraremos el cargo máximo en la tabla anterior. Los cargos por Pago atrasado y por Pago devuelto no excederán el pago mínimo correspondiente que
se debe.
Pago Mínimo: Calcularemos el pago mínimo como: (1) cualquier cantidad atrasada; MÁS (2) cualquier obligación de pago especial en relación con Ofertas de Financiación
Flexible que requieren el pago del saldo durante una cantidad preseleccionada de períodos de facturación; MÁS (3) El mayor de: (a) $40 (o la cantidad total que usted adeuda
si es inferior a $40); o (b) la suma de: (i) el 1% del saldo nuevo (excluyendo cualquier saldo de Oferta de Financiación Flexible que requiera obligaciones de pago especiales
para garantizar el pago del saldo durante una cantidad preseleccionada de períodos de facturación), MÁS (ii) cualquier cargo periódico por intereses y cargo por pago atrasado
que le hayamos facturado a usted en el estado de cuenta para el que se calcula su pago mínimo.
Tasa Prime: las APR variables están basadas en el 3.25% tasa Prime a partir de 30 de junio de 2021.
a Agregamos de 11.74% hasta 20.49% a la tasa Prime para determinar la APR para Compras/My Chase Loan/Transferencias de Saldo (tasa periódica diaria actual de 0.04107%
hasta 0.06505%). APR máxima del 29.99% (tasa periódica diaria de 0.08217%).
COL00035

b Agregamos

21.74% a la tasa Prime para determinar la APR para Adelantos de Efectivo (tasa periódica diaria actual de 0.06847%). APR máxima del 29.99% (tasa periódica
diaria de 0.08217%).
c Agregamos hasta 26.99% a la tasa Prime para determinar la APR de Penalización. APR máxima del 29.99% (tasa periódica diaria de 0.08217%).
d Cargo

de My Chase Plan. El cargo de My Chase Plan se calcula en el momento en que se crea cada plan, y según la cantidad de cada transacción de compra o la cantidad
seleccionada para crear el plan, la cantidad de períodos de facturación que usted elija para pagar el saldo en su totalidad y otros factores. La cantidad en dólares mensual y
acumulada de su cargo de My Chase Plan se detallará durante la activación de cada My Chase Plan.

Aviso de la Ley de Préstamos para Militares: La ley federal ofrece protecciones importantes a los miembros de las Fuerzas Armadas y sus dependientes relacionadas con la
concesión de crédito al consumidor. En general, el costo del crédito al consumidor para un miembro de las Fuerzas Armadas y sus dependientes no puede exceder una tasa
efectiva anual del 36 por ciento. Esta tasa debe incluir, según corresponda a la cuenta o transacción de crédito, lo siguiente: los costos relacionados con las primas del seguro
de crédito; los cargos por productos auxiliares que se venden en relación con la transacción de crédito; cualquier cargo por solicitud que se cobre (que no sean determinados
cargos por solicitud de cuentas o transacciones de crédito específicas); y cualquier cargo por participación que se cobre (que no sean determinados cargos de participación
de una cuenta de tarjeta de crédito). Para recibir esta información y una descripción verbal de su obligación de pago, por favor, llame al 1-800-235-9978.

COL00035

CONTRATO DE

TARJETA DE CRÉDITO

BIENVENIDO
A SU CUENTA
Tome un momento para revisar y guardar esta información importante acerca de su
cuenta. Este documento, junto con la Tabla de tasas y cargos, constituye un contrato
entre usted (titular de la tarjeta) y JPMorgan Chase Bank, N.A., una subsidiaria de
JPMorgan Chase & Co. Si tiene alguna pregunta, llámenos al número que se encuentra en
la parte posterior de su tarjeta. Hemos aceptado prestarle dinero según se describe en
este contrato, y usted acepta pagarnos de vuelta con los cargos y costos por intereses. Si
usted usa esta cuenta o realiza cualquier pago a esta cuenta, está indicando que acepta los
términos de este contrato. Tenga en cuenta: Si cualquier cargo en la Tabla de tasas y cargos
está marcado como "ninguno", no se aplicará la sección de este contrato que se relacione
con ese cargo.

Primeros Pasos:
Su Cuenta

Familiarícese con su cuenta mediante la revisión de los términos importantes a continuación.

Término Importante

Lo Que Significa Para Usted

Nuestra Responsabilidad

Límite de crédito

Usted es responsable del saldo total en todo momento, inclusive si su saldo supera su
límite de crédito.

Registraremos su límite de crédito actual en su estado de cuenta de facturación mensual y
podemos cancelar, cambiar o restringir su límite de crédito o su disponibilidad de crédito en
cualquier momento. No estamos obligados a permitir que su cuenta supere su límite de crédito.

Usuarios autorizados

Usted es responsable de cualquier uso de su cuenta por un usuario autorizado o por cualquiera a
quien usted permita usar su cuenta. Debe notificarnos si desea que ellos dejen de utilizar su cuenta.
Usted también es responsable de obtener cualquier tarjeta, cheques u otros medios de acceso a su
cuenta del usuario autorizado.

Si usted lo solicita, podemos emitir tarjetas que accedan a su cuenta para sus usuarios
autorizados. Si desea cancelar a un usuario autorizado, podemos cerrar su cuenta y abrir una
cuenta nueva con un número de cuenta distinto.

Cargo de
membresía anual

Si su cuenta tiene un cargo anual, usted es responsable de ese cargo cada año en el que su
cuenta esté abierta o hasta que su cuenta se cierre y se pague en su totalidad. Su estado
de cuenta de facturación mensual le informará cómo cancelar su cuenta y evitar futuros
cargos anuales.

Si su cuenta tiene un cargo anual, agregaremos su cargo anual a su estado de cuenta de
facturación mensual una vez al año, independientemente de que use o no su cuenta. Su cargo
anual será añadido a su saldo de compra y puede incurrir en intereses.

Enmiendas

Podremos cambiar de vez en cuando los términos de este contrato, inclusive las tasas
efectivas anuales (APR por sus siglas en inglés) y los cargos. También podremos agregar
o eliminar términos. Las APR u otros términos también pueden cambiar sin realizar una
enmienda, por ejemplo cuando cambia la tasa Prime o la APR de penalización es aplicable.
Consulte las secciones APR de Tasa variable y APR de penalización para más información.

Nuestra capacidad para efectuar cambios en este contrato se encuentra limitada por la ley
aplicable. Podemos comunicarle las enmiendas a este acuerdo por correo postal, correo
electrónico u otros medios electrónicos, o incluirlas en sus estados de cuenta de facturación
mensuales, según lo permita la ley.

Definiciones Importantes
Término

Lo Que Significa

Transacciones
tipo efectivo

Las transacciones equivalentes a efectivo serán consideradas adelantos de efectivo. Las transacciones equivalentes a efectivo incluyen, entre otras, las siguientes transacciones en la medida en
que sean aceptadas:
• Compras de cheques de viajero, moneda extranjera, giros postales, giros bancarios, criptomonedas, otras divisas digitales o virtuales similares y otras transacciones similares;
• Compras de boletos de lotería, fichas de juegos de casino, apuestas de carreras o transacciones de apuestas con y sin conexión a internet similares;
• Transferencias de dinero de persona a persona y transacciones de financiamiento de cuentas que transfieren divisas, y
• Realización de un pago utilizando un servicio de terceros, incluyendo las transacciones de pago de facturas que no se realizan directamente con el comerciante o su proveedor de servicios.

Fecha de vencimiento
del pago

Los pagos vencen en la fecha de vencimiento del pago que aparece en su estado de cuenta mensual. El estado de cuenta mensual también explica el momento en el que debemos recibir el pago
para que se considere recibido a la fecha. Los pagos recibidos después de la fecha requerida se acreditarán el próximo día hábil.

Tasa variable

Nosotros calculamos la APR variable agregando un margen a la tasa Prime más alta en los Estados Unidos publicada en la sección “Money Rates” del periódico “The Wall Street Journal” dos días
hábiles (no en fines de semana o feriados nacionales) antes de la fecha de cierre que aparece en su estado de cuenta de facturación. La APR puede aumentar o disminuir cada mes si cambia la
tasa Prime. Se aplicará cualquier tasa nueva a partir del primer día de su ciclo de facturación durante el cual cambió la tasa Prime. Si aumenta la APR, usted pagará un mayor cargo por intereses
y podrá pagar un mayor pago mínimo. La tasa Prime es simplemente un índice de referencia y no es la tasa de interés más baja disponible. Si el periódico “The Wall Street Journal” deja de publicar
la tasa Prime, seleccionaremos una tasa de referencia similar.

Incumplimiento

Su cuenta estará en situación de incumplimiento si: 1) Usted no paga al menos el pago mínimo al vencimiento; 2) Usted supera su límite de crédito; 3) Usted no cumple con éste u otros contratos
con nosotros o con uno de nuestros bancos relacionados; o 4) Creemos que existe la posibilidad de que usted no esté dispuesto o no pueda pagar sus deudas a tiempo; usted presenta una
solicitud de quiebra; o usted quede incapacitado o muera.
Si su cuenta está en situación de incumplimiento, podemos cerrarla sin aviso y requerirle que pague inmediatamente su saldo pendiente. También podemos comenzar actividades de cobro. En
la medida de lo permitido por la ley, si usted está en situación de incumplimiento por no habernos pagado, tendrá que pagar nuestros gastos de cobro, los honorarios de abogados, las costas
de tribunales y todos los demás gastos de la exigibilidad de nuestros derechos según este contrato.

Saldo de ahorro
de intereses

Cuando usted aprovecha ofertas de financiación flexible, no le cobraremos intereses por las compras nuevas si paga el saldo total de ahorro de intereses a más tardar para la fecha de vencimiento
de cada mes.
Si su saldo de ahorro de intereses de cualquier ciclo de facturación es menor que su pago mínimo adeudado, el monto de su saldo de ahorro de intereses reflejará su pago mínimo adeudado
para evitar un cargo por pago atrasado.

Ofertas de
financiación flexible

Cuando usted aprovecha ofertas de financiación flexible, como las disponibles con My Chase Loan SM y My Chase Plan SM, puede pagar dichos saldos con el transcurso del tiempo según los
términos de su oferta y aún así evitar cargos por intereses adicionales en compras nuevas.

Uso De Su Tarjeta

Puede utilizar su cuenta de las siguientes maneras. Su cuenta se utilizará sólo para fines personales, familiares o
del hogar. No puede utilizar su cuenta con fines ilegales, tales como escribir cheques contra fondos no cobrados.
Usted acepta que podemos confiar en la información que nos proporcionan los comerciantes y la red de pago
correspondiente para clasificar las transacciones como Compras, Transferencias de saldo o Adelantos de efectivo.

Transacciones

Lo Que Significa Para Usted

Nuestra Responsabilidad

Compras

Puede utilizar su cuenta para comprar productos y servicios.

Autorizamos cargos a su cuenta de acuerdo con los términos de este contrato.

Transferencias
de saldos

Si es elegible para una transferencia de saldo, usted puede transferir saldos a su cuenta utilizando cheques
de transferencia de saldo, visitando nuestro sitio Web o llamándonos.

Permitimos transferencias de saldos desde la mayoría de las cuentas que no sean
de Chase. No permitimos transferencias de saldos desde otras cuentas o préstamos
con nosotros o cualquiera de nuestros bancos relacionados.

Adelantos de
efectivo

Puede obtener efectivo de cajeros automáticos, en bancos o mediante el uso de cheques de adelanto
de efectivo. A menos que indiquemos lo contrario, los cheques de transferencia de saldo o los cheques
promocionales pagaderos en efectivo o en su nombre se considerarán como adelantos de efectivo.

Consideramos ciertas otras transacciones como adelantos de efectivo. Consulte la
sección Transacciones tipo efectivo bajo Definiciones importantes arriba.

Cheques

Para su protección, los cheques de transferencia de saldo y de adelanto de efectivo deben estar firmados por
la persona cuyo nombre aparece impreso en los cheques.

Podemos proporcionarle cheques de transferencia de saldo y de adelanto de
efectivo para su uso; tenemos derecho a no pagar un cheque por cualquier razón.

Cargos
automáticos

Puede crear transacciones programadas y repetidas en su cuenta. Si su cuenta se cierra o se suspende, o si
su número de cuenta cambia, necesitará comunicarse con cualquier persona a la que esté pagando mediante
transacciones automáticas.

No somos responsables de transacciones programadas y repetidas si su cuenta se
cierra, se suspende, o si su número de cuenta cambia.

Promociones

Usted puede recibir ofertas especiales relacionadas con su cuenta.

Cualquier oferta especial está sujeta a este contrato, a menos que se indique
lo contrario.

Cargo por
transacción en
el extranjero y
tasa de cambio

Existe un cargo, a menos que esté registrada la palabra “Ninguno” en la Tabla de tasas y cargos, para las
transacciones que se han realizado en otra moneda que no sean dólares estadounidenses. Nuestro cargo es un
porcentaje de la cantidad de la transacción en dólares estadounidenses. Por favor consulte la Tabla de tasas y
cargos para ver la cantidad de este cargo, de existir alguno.

• S i una transacción se efectúa en moneda extranjera, Visa International o Mastercard
International convertirá la transacción a dólares estadounidenses utilizando sus propios
procedimientos de conversión de moneda, y luego nos enviará la cantidad de la transacción.
La tasa de cambio se determinará mediante el uso del rango de tasas disponibles en los
mercados de divisas mayoristas para la fecha de procesamiento (que puede diferir de la
tasa que recibe la asociación de tarjeta) o una tasa gubernamental obligatoria vigente en
esa fecha. La tasa de cambio utilizada por Visa o Mastercard puede diferir de la tasa de
cambio en la fecha de su transacción.
• En caso de mercancía que ha sido devuelta o cambiada que se compró con una
moneda extranjera, la tasa de cambio se determina en la fecha de la devolución.

Autorización de
transacciones
y Cierre de
su cuenta

No estamos obligados a pagar toda transacción y podemos cerrar o suspender su cuenta. En algunas ocasiones,
cerramos cuentas no en base a sus acciones o inacciones, sino en base a nuestras necesidades comerciales.

Podremos rechazar transacciones por cualquier razón, inclusive: asuntos
operativos, la cuenta se encuentra en situación de incumplimiento, o supuesta
actividad fraudulenta o ilícita. No somos responsables por cualquier pérdida
asociada con una transacción rechazada.

My Chase
Loan SM

En caso de ser elegible, usted podrá utilizar la función My Chase Loan para obtener efectivo en la forma de un depósito
electrónico en una cuenta bancaria elegible en una institución financiera ubicada en los Estados Unidos al aceptar una
oferta de My Chase Loan. Cada oferta incluirá una APR de My Chase Loan y la cantidad de períodos de facturación
necesarios para pagar el saldo de My Chase Loan en su totalidad al efectuar pagos regulares en cada período de
facturación mensual.

A nuestra entera discreción, podemos poner My Chase Loan a su disposición;
también podemos rechazar una transacción de My Chase Loan por
cualquier motivo.

Su capacidad para generar un saldo de My Chase Loan depende de una variedad de factores, como su capacidad
crediticia, su límite de crédito y su comportamiento anterior en la cuenta. No podrá generar un saldo de My Chase Loan
si se inscribe en un programa de administración de deuda, o si su cuenta se cierra o cae en incumplimiento.
Las transacciones de My Chase Loan no son adelantos de efectivo ni transferencias de saldo. My Chase Loan
otorga ofertas de financiación flexible. Por lo tanto, cuando usted tiene un saldo de My Chase Loan en su
cuenta, no le cobraremos intereses por las compras nuevas si paga su saldo total de ahorro de intereses a más
tardar para la fecha de vencimiento de cada mes.
My Chase Plan SM

En caso de ser elegible, usted podrá utilizar la función My Chase Plan a través de chase.com o la aplicación
Chase Mobile para generar, a través de transacciones de compra elegibles recientes o cantidades elegibles, un
saldo de My Chase Plan con términos de pago fijos, sujeto al cargo de My Chase Plan. De las ofertas disponibles,
usted selecciona la cantidad de períodos de facturación que le tomará pagar el saldo de My Chase Plan en su
totalidad realizando pagos regulares en cada período de facturación mensual. En cada período de facturación
durante el cual haya un saldo en My Chase Plan, se le cobrará el cargo de My Chase Plan, en lugar de los
intereses según la APR para compras.
Una transacción de compras elegible de My Chase Plan es una compra de al menos una cantidad específica de
dólares, pero es posible que no se incluyan ciertas transacciones de compra, como transacciones equivalentes
a efectivo y cualquier cargo que se nos adeude, incluidos cargos anuales de membresía. Una cantidad elegible
para My Chase Plan es una parte del saldo de su cuenta, según se especifica ocasionalmente en la experiencia
de My Chase Plan. Las transacciones de adelanto de efectivo, transferencia de saldo y My Chase Loan no son
elegibles para My Chase Plan.
Su capacidad para generar un saldo de My Chase Plan depende de una variedad de factores, como su capacidad
crediticia, su límite de crédito y su comportamiento en la cuenta. No podrá generar un saldo de My Chase Plan
si se inscribe en un programa de administración de deuda, o si su cuenta se cierra o cae en incumplimiento.
Cuando usted tiene un saldo de My Chase Plan en su cuenta, no le cobraremos intereses por las compras nuevas
si paga su saldo total de ahorro de intereses a más tardar para la fecha de vencimiento de cada mes.

A nuestra entera discreción, podemos poner My Chase Plan a su disposición;
también podemos rechazar una transacción de My Chase Plan por cualquier motivo.

Pagándonos de Vuelta
Información
Importante

Usted recibirá un estado de cuenta de facturación cada mes, si requiere uno. En éste aparecerá su pago mínimo
requerido. Luego de efectuar un pago, puede llevar hasta 15 días reintegrar el crédito disponible a su cuenta.

Lo Que Significa Para Usted

Nuestra Responsabilidad

Instrucciones de pago

Debe cumplir con las instrucciones de pago en su estado de cuenta de facturación. Puede pagarnos
mediante: cheque, giro postal, o pago electrónico girado a un banco de los Estados Unidos o a una sucursal
de banco extranjero en los Estados Unidos. Todos los pagos se deben realizar en dólares estadounidenses.
Usted nos autoriza a cobrar cualquier pago de cheque, ya sea electrónicamente o mediante giro. Los pagos
marcados como “paid in full” (pagados en su totalidad) se deben enviar a la dirección de Pagos condicionales
que se indica en su estado de cuenta de facturación. Consulte su estado de cuenta de facturación para ver
las instrucciones de pago completas.

Siempre y cuando usted efectúe su pago de acuerdo con las instrucciones en su
estado de cuenta de facturación a más tardar para la fecha y hora en que vencen
los pagos, acreditaremos su pago a partir del mismo día en que se recibe.
Podremos aceptar y procesar cualquier pago marcado como “paid in full” sin
perder nuestros derechos.

Pago mínimo

Usted acepta pagar al menos el pago mínimo al vencimiento. Usted también acepta pagar cantidades de
límites excedidos cuando se facturen a sus estados de cuenta mensuales o más temprano en el caso que
lo solicitemos. Los pagos mínimos pueden incluir pagos fijos específicos que son parte de promociones
especiales. Usted puede pagar los saldos más rápido pagando más que el pago mínimo o el saldo total no
pagado en su cuenta.

Calcularemos su pago mínimo en base al método descrito debajo en la Tabla
de tasas y cargos. El pago mínimo aparecerá en su estado de cuenta mensual e
incluye cualquier cantidad atrasada.

Período sin intereses
(también conocido
como período de
gracia) en compras

• Cuando su cuenta está en un período sin intereses, no se cobran intereses por compras nuevas.
• Su cuenta se encuentra en un período sin intereses cuando usted ha pagado el Nuevo saldo o el Saldo de
ahorro de intereses que se muestra en su estado de cuenta de facturación más reciente a más tardar para
la fecha y hora de vencimiento.
• Si no paga el Nuevo saldo o el Saldo de ahorro de intereses que se muestra en su estado de cuenta de
facturación más reciente a más tardar para la fecha y hora de vencimiento, perderá su período sin intereses
y le cobraremos intereses por sus compras.

• Cuando su cuenta esté en un período sin intereses, no le cobraremos intereses
por nuevas compras.
• Cuando su cuenta no esté en un período sin intereses, le cobraremos intereses
sobre sus compras desde la fecha en que las compras aparezcan
en su cuenta hasta que su Nuevo saldo o Saldo de ahorro de intereses se
pague por completo.

• Puede recuperar el beneficio del período sin intereses pagando su Nuevo saldo o Saldo de ahorro de
intereses a más tardar para la fecha y hora de vencimiento.
• Después de que ingrese nuevamente un período sin intereses, los cargos por intereses sobre las compras
aún pueden aparecer en su próximo estado de cuenta de facturación. Esto refleja los intereses cobrados
desde el comienzo de ese ciclo de facturación hasta la fecha en que se recibió su pago por el estado de
cuenta de facturación anterior.
• L as transferencias de saldos, cheques y adelantos de efectivo no tienen un período sin intereses, y si estos
saldos no se pagan en su totalidad al pagar su Nuevo saldo o Saldo de ahorro de intereses a más tardar para
la fecha y hora de vencimiento, perderá su período sin intereses en las nuevas compras.

• Para obtener más información sobre la forma en que calculamos sus cargos
por intereses, revise la sección de Cargos por intereses de este contrato.

Asignación de pagos

• Cuando usted realiza un pago, generalmente primero aplicamos su pago mínimo a la obligación mensual
para cualquier saldo de Oferta de Financiamiento Flexible con obligaciones de pago especiales que
requieren el pago del saldo durante una cantidad preseleccionada de períodos de facturación y luego al
saldo de su estado de cuenta mensual con la APR más baja.
• Cualquier pago por encima de su pago mínimo se aplicaría por lo general al saldo de su estado de cuenta
mensual con la APR más alta primero.
• Si usted no paga la totalidad de su nuevo saldo o saldo de ahorro de intereses, como aparece en su estado
de cuenta, cada mes, es posible que no pueda evitar los cargos por intereses por las compras nuevas.

Nosotros aplicamos los pagos a los saldos como aparecen en su estado de
cuenta mensual antes de aplicarlos a las transacciones nuevas. Un ejemplo
de una transacción nueva es una compra reciente que usted haya realizado y
que aún no se haya incluido en el saldo nuevo como se muestra en su estado
de cuenta.

Saldos de crédito

Puede solicitar un reembolso de cualquier saldo de crédito a su favor.

Si no solicita un reembolso, aplicaremos cualquier saldo de crédito a los nuevos cargos en su Cuenta. Si el saldo de crédito permanece en su cuenta por 6
meses y la cantidad es de $1 o más, se la reembolsaremos automáticamente.
Si su saldo de crédito es inferior a $1, éste será eliminado de su cuenta, pero le
enviaremos un crédito en el saldo si usted nos lo solicita.

“Cómo Evitar...”

Ciertas transacciones y situaciones pueden hacer que su cuenta reciba un cargo o tenga otro impacto en su
cuenta. La información de abajo explica cómo puede evitar estas consecuencias. Las cantidades de estos cargos
se enumeran en la Tabla de tasas y cargos. La Tabla de tasas y cargos indica las cantidades “hasta” ciertos límites
para cargos de penalización debido a que la ley aplicable puede restringir nuestra capacidad para imponer la
cantidad total del cargo de penalización en algunas circunstancias. Consulte la disposición debajo de la Tabla de
tasas y cargos sobre “Cargos de penalización” para obtener más detalles que reflejen limitaciones impuestas de
acuerdo con la ley aplicable. Los servicios especiales que usted requiera pueden incurrir en cargos de servicios
adicionales; asegúrese de revisar cuidadosamente los detalles de cualquier servicio adicional para comprender
los términos.

“Cómo Evitar…”

Qué Hacer

Lo Que Significa

Cargo por pago atrasado

Asegúrese que Chase reciba al menos el pago mínimo
que aparece en su estado de cuenta de facturación
al vencimiento.

Si algún pago se atrasa, podemos cobrarle un cargo por pago atrasado. Si el cargo se basa en un saldo, calculamos el cargo
utilizando el saldo total al final del día en el que se cobra el cargo.

Cargo por exceder el
límite de crédito

Asegúrese de que su saldo total se mantenga por
debajo de su límite de crédito.

Si acepta permitirnos que cobremos cargos por exceder el límite, podremos cobrar dicho cargo cuando su cuenta exceda el límite
de crédito. Podremos cobrar este cargo aunque su saldo exceda el límite debido a una transacción que autorizamos nosotros.
Puede retirar su consentimiento a que cobremos el cargo por límite excedido en cualquier momento.

Cargo por
cheque devuelto

No suspenda los pagos de cheques de adelanto de
efectivo y de transferencia de saldo, y no incurra
en incumplimiento.

Podremos cobrar un cargo por cheque devuelto si: suspendemos pagos sobre un cheque de adelanto de efectivo o cheque de
transferencia de saldo a su pedido, o denegamos el pago de un cheque de adelanto de efectivo o cheque de transferencia de saldo
por cualquier razón, inclusive si su cuenta se encuentra en situación de incumplimiento.

Cargo por pago devuelto

No presente un pago que podría devolverse sin pagar.

Podremos cobrarle este cargo si el pago que nos ofrece no se realiza, se devuelve sin pagar o no se puede procesar.

APR de penalización

No
• Dejar de realizar un Pago mínimo a más tardar para
la fecha y hora de vencimiento; o
• Nos realice un pago que se devuelva sin pagar.

Podemos aplicar la APR de penalización, que es más alta que la APR que de otro modo pagaría, por cualquiera de estos motivos.
•A
 PR de penalización en transacciones nuevas: si no realiza un Pago mínimo a más tardar para la fecha y hora de
vencimiento, pero realiza el pago en un plazo de 60 días a partir de esa fecha de vencimiento, podemos aplicar la APR de
penalización. También podemos aplicar la APR de penalización si nos realiza un pago que se devuelve sin pagar. En cualquier caso,
la APR de penalización se aplicará a las transacciones nuevas. Después de que apliquemos la APR de penalización, revisaremos
su cuenta ocasionalmente para ver si una reducción en la APR es apropiada.
•A
 PR de penalización sobre saldos pendientes y transacciones nuevas: si no recibimos el Pago mínimo en un plazo
de 60 días desde la fecha y hora de vencimiento, entonces también podemos aplicar la APR de penalización. Si la aplicamos en
este caso, la APR de penalización se aplicará a todos los saldos existentes en su cuenta y a las transacciones nuevas. Si realiza
seis pagos mínimos consecutivos cuando vencen, y comienza con su primer pago adeudado después de que apliquemos la
APR de penalización, entonces la APR de penalización ya no se aplicará. Si no realiza seis pagos mínimos consecutivos cuando
vencen, y comienza con su primer pago adeudado después de que apliquemos la APR de penalización, entonces la APR de
penalización podría permanecer vigente indefinidamente. Después de que apliquemos la APR de penalización, revisaremos su
cuenta ocasionalmente para ver si una reducción en la APR es apropiada.

Cobros

No incurra en incumplimiento.

Si se encuentra en situación de incumplimiento, podremos realizar las acciones que se describen anteriormente en la sección de
Incumplimiento debajo de Definiciones Importantes en la parte posterior.

“¿Qué Sucede Si…”

Revise esta sección para situaciones o preguntas comunes que podrían requerir una acción de su
parte o de parte de Chase.

“¿Qué Sucede Si…”

Acción

Lo Que Significa

… creo que encontré un error en mi
estado de cuenta?

Investigaremos

Escríbanos dentro de los 60 días después de la aparición del supuesto error en su estado de cuenta de facturación.
Investigaremos y le comunicaremos nuestros hallazgos. Consulte la sección Sus derechos de facturación que se encuentra
debajo para obtener más detalles.

… estoy disconforme con una compra con tarjeta de crédito?

Investigaremos el problema

Primero, intente resolver el problema con el comerciante. Luego escríbanos sobre la compra. Investigaremos el problema y
le comunicaremos nuestros hallazgos. Consulte la sección Sus derechos de facturación que se encuentra debajo para obtener
más detalles..

… perdí o robaron mi tarjeta?

Comuníquese con nosotros inmediatamente
y deje de utilizar su cuenta

Si perdió o le robaron su tarjeta, o si cree que alguien utilizó su cuenta sin permiso, háganoslo saber inmediatamente llamando
al número de Atención para Titulares de Tarjeta en su tarjeta o estado de cuenta de facturación. Necesitamos su ayuda para
averiguar qué sucedió y corregir el problema.

... se cerró o se suspendió
mi cuenta?

Usted continúa siendo responsable de
su saldo

Inclusive en el caso de que su cuenta se cierre o suspenda, debe pagar todas las cantidades que nos debe de acuerdo con
la cuenta.

... quiero transferir un saldo o
efectuar un adelanto de efectivo?

Se aplican cargos por transferencia de saldo
o por transferencia de adelanto de efectivo

Incurrirá en un cargo por transacción por estas transacciones. Consulte la Tabla de tasas y cargos para ver la cantidad de
este cargo.

Sobre Nuestra
Relación

Mantener una relación positiva con usted es muy importante para nosotros. Revise estos
términos para comprender más en su cuenta.

Información Importante Lo Que Significa
Comunicaciones

Podemos enviarle tarjetas, estados de cuenta y otras comunicaciones a cualquier domicilio postal o de correo electrónico que figure en nuestros registros. Si más de una persona es
responsable por esta cuenta, podemos proveer estados de cuenta de facturación y comunicaciones a uno de ustedes. Cuando usted nos da su número de teléfono celular, tenemos su
permiso para comunicarnos con usted a ese número con respecto a todas sus cuentas de Chase o J.P. Morgan. Su consentimiento nos permite utilizar la mensajería de texto, mensajes de
voz artificial o pregrabados y la tecnología de marcación automática para las llamadas de servicio de información y de la cuenta, pero no para las llamadas de venta o telemercadeo. Puede
incluir la comunicación por parte de las compañías que prestan servicio a sus cuentas en nombre nuestro. Podrían aplicarse cargos por datos y mensajes de texto. Puede comunicarse con
nosotros en cualquier momento para cambiar estas preferencias. También podremos enviar un mensaje de correo electrónico a cualquier dirección a la que tengamos motivos para creer
que podamos comunicarnos con usted. Algunos de los fines legales de las llamadas y mensajes incluyen: posible fraude o robo de identidad, obtención de información; transacciones o
prestación de servicios en su cuenta; cobranza en su cuenta; y suministro de información sobre productos y servicios. Avísenos inmediatamente sobre cualquier cambio en su información
de contacto a través del domicilio de Servicios de Atención para Titulares de Tarjeta o al número de teléfono que aparece en su estado de cuenta de facturación

Supervisión telefónica

Podremos escuchar y grabar sus conversaciones telefónicas con nosotros y podremos usar su voz para verificación.

Información de crédito

Podremos obtener y revisar su historial crediticio de agencias de informes de crédito y otras instituciones. Es posible que, ocasionalmente, obtengamos de terceros datos sobre empleo
e ingresos para ayudarnos a continuar con la administración de su cuenta. También podemos proporcionar información sobre usted y su cuenta a agencias de informes de crédito y a
otras instituciones. También podremos proporcionar información a agencias de informes de crédito sobre esta cuenta en nombre de un usuario autorizado. Si cree que proporcionamos
información incorrecta, escríbanos e investigaremos.

Aplicación

Podremos exigir el cumplimiento de los términos de este contrato en cualquier momento. Podremos retrasar su aplicación sin perder nuestro derecho a exigir el cumplimiento de este
contrato en una oportunidad posterior. En el caso que algunos términos de este contrato se consideren no exigibles, aún podemos exigir los otros términos.

Ley que rige

Este contrato y su cuenta se regirán por la ley federal, así como por la ley de Delaware, y se aplicarán independientemente del lugar donde usted resida o utilice
esta cuenta.

Cesión

Podremos ceder su cuenta, los saldos que usted nos adeude, o cualquiera de nuestros derechos y obligaciones de conformidad con el presente contrato. En ese caso, el tercero tiene
derecho a cualquiera de nuestros derechos que le cedemos.

Residentes de NJ

Todas las disposiciones de este contrato son válidas, exigibles y aplicables en Nueva Jersey.

Aviso de la Ley de
Préstamos para el Personal
Militar

La ley federal ofrece protecciones importantes a los miembros de las Fuerzas Armadas y sus dependientes relacionadas con la concesión de crédito al consumidor. En general, el costo del
crédito al consumidor para un miembro de las Fuerzas Armadas y sus dependientes no puede exceder una tasa efectiva anual del 36 por ciento. Esta tasa debe incluir, según corresponda
a la cuenta o transacción de crédito, lo siguiente: los costos relacionados con las primas del seguro de crédito; los cargos por productos auxiliares que se venden en relación con la
transacción de crédito; cualquier cargo por solicitud que se cobre (que no sean determinados cargos por solicitud de cuentas o transacciones de crédito específicas); y cualquier cargo
por participación que se cobre (que no sean determinados cargos de participación de una cuenta de tarjeta de crédito). Si usted está cubierto por la Ley de Préstamos para el Personal
Militar, (i) entonces no está sujeto al Acuerdo de Arbitraje a continuación y (ii) sin perjuicio de cualquier disposición en contrario en este Contrato, en la medida en que lo requiera la
Ley de Préstamos para el Personal Militar, ninguna disposición del presente contrato se considerará una renuncia al derecho de recurso legal conforme a cualquier disposición de otro
modo aplicable de la ley federal o estatal. Para recibir esta información y una descripción verbal de su obligación de pago, o si tiene alguna pregunta, por favor, llame al 1-800-235-9978.

Arbitraje vinculante

A menos que rechace oportunamente el acuerdo de arbitraje, es posible que las disputas con nosotros se resuelvan mediante arbitraje vinculante. Con el arbitraje, usted no puede acudir
al tribunal, tener un juicio por jurado ni iniciar o participar en un pleito de acción de clase (Class Action) por sus disputas con nosotros. En el arbitraje, un árbitro resuelve las disputas, no
un juez ni un jurado, y los procedimientos son más simples y más limitados que las reglas que se aplican en un tribunal.
Por favor, consulte la sección Acuerdo de arbitraje para más detalles, incluyendo instrucciones para rechazar el acuerdo de arbitraje.

CARGOS POR INTERESES
Se podrán encontrar en la Tabla de tasas y cargos, las
tasas de interés diarias y las tasas efectivas anuales.
Cálculo del cargo periódico por intereses — Método
de saldo diario (incluyendo nuevas transacciones):
Calculamos un saldo diario para cada tipo de transacción
y utilizamos los saldos diarios para determinar sus cargos
por intereses.
Calculamos el “saldo diario” para cada tipo de transacción de la
siguiente manera:
• Tomamos el saldo inicial para cada día y agregamos

•	Para obtener la tasa de interés diaria para cada tipo de transacción dividimos
la APR por 365. Podremos combinar distintos tipos de transacciones que
tienen las mismas tasas de interés diarias.
•	Multiplicamos la tasa de interés diaria por el saldo diario para cada tipo de
transacción por cada día del ciclo de facturación.
•	Sumamos los cargos por intereses para cada día en el ciclo de facturación por
cada tipo de transacción.
•	Si se adeuda algún cargo por intereses, le cobraremos al menos el cargo
mínimo de interés que se muestra en la Tabla de tasas y cargos.
Agregamos las transacciones y los cargos a su saldo diario no antes de:
•	La fecha de la transacción, en el caso de las compras nuevas, transferencias
de saldo, adelantos de efectivo o My Chase Loans.

-	cualquier cargo por intereses desde el día anterior
(conocido como interés compuesto) y

•	La fecha en la que el beneficiario deposita el cheque, para nuevos cheques de
adelanto de efectivo o de transferencia de saldo.

-	cualquier transacción nueva u otros débitos (estos incluyen: cargos de
membresía anual, cargos por transacciones, cargos de penalización,
cualquier otro cargo y cargos por intereses no pagados).

•	La fecha de una transacción vinculada, la fecha en que se registraron en su
cuenta o el último día del ciclo de facturación, según lo decidamos, en el caso
de los cargos.

•	Le restamos pagos o créditos, y tratamos cualquier saldo de crédito neto
como un saldo cero.
• El resultado es el saldo diario para cada tipo de transacción.
Calculamos los cargos por intereses en su cuenta de la siguiente manera:

Los saldos sujetos a la tasa de interés para cada tipo de transacción que se
muestran en su estado de cuenta de facturación son la suma de los saldos
diarios para ese tipo de transacción dividida por la cantidad de días en el
ciclo de facturación. Podremos utilizar fórmulas matemáticas que producen
resultados equivalentes para calcular el saldo sujeto a la tasa de interés, los
cargos por intereses y las cantidades relacionadas

Sus derechos de facturación:
conserve este documento para
su uso futuro
Este aviso le informa sobre sus derechos y nuestras
responsabilidades de acuerdo con la “Ley de facturación
justa de crédito” (Fair Credit Billing Act).

Qué hacer si encuentra un error en su estado de cuenta
Si cree que hay un error en su estado de cuenta, contáctenos por escrito
al domicilio de Atención al Cliente que se indica en su estado de cuenta de
facturación. En su comunicación, proporciónenos la siguiente información:
• Información de cuenta: su nombre y número de cuenta.
• Cantidad en dólares: la cantidad en dólares del presunto error.
•	Descripción del problema: si cree que hay un error en su factura, describa lo
que cree que está mal y porqué cree que es un error.
Debe comunicarse con nosotros:
• Dentro de 60 días posteriores a la aparición del error en su estado de cuenta.
•	Al menos 3 días hábiles antes de que se programe un pago automático, si
quiere suspender un pago sobre la cantidad que cree que está mal.
Debe avisarnos sobre cualquier error potencial por escrito. Podrá llamarnos o
avisarnos electrónicamente, pero si lo hace no estamos obligados a investigar
cualquier error potencial y usted tal vez tenga que pagar la cantidad en cuestión.

Qué pasará luego de que recibamos
su comunicación escrita
Cuando recibimos su comunicación, debemos hacer dos cosas:
1. D entro de los 30 días de recibir su comunicación, debemos informarle que la
recibimos. También le informaremos si ya hemos corregido el error.
2. Dentro de los 90 días de recibir su comunicación, debemos corregir el error o
explicarle porqué creemos que la factura es correcta.
Mientras tanto nosotros investigamos si ha existido o no un error:
•	No podemos intentar cobrar la cantidad en cuestión, o reportarle como
atrasado en esa cantidad.
•	El cargo en cuestión podrá permanecer en su estado de cuenta, y nosotros
podemos continuar cobrándole interés sobre esa cantidad.
•	Si bien usted no tiene que pagar la cantidad en cuestión, es responsable del
resto de su saldo.
•	Podemos aplicar cualquier cantidad sin pagar contra su límite de crédito.
Luego de finalizar nuestra investigación, puede pasar una de dos cosas:
•	Si cometimos un error: Usted no tendrá que pagar la cantidad en cuestión o
cualquier interés u otros cargos relacionados con esa cantidad.
•	Si no creemos que hubo un error: Tendrá que pagar la cantidad en cuestión,
junto con los intereses y cargos aplicables. Le enviaremos un estado de
cuenta con la cantidad que usted adeuda y la fecha de vencimiento. Podremos
luego reportarle que usted está atrasado si no paga la cantidad que creemos
que usted nos adeuda.

Si usted recibe nuestra explicación pero aún cree que su factura es errónea,
debe comunicarse con nosotros por escrito dentro de 10 días informándonos
que usted aún se niega a pagar. Si lo hace, no podemos reportarle como
atrasado sin reportar también que usted está cuestionando su factura. Debemos
decirle a usted el nombre de cualquiera a quien le hayamos reportado que usted
estaba atrasado, y debemos permitir que esas organizaciones sepan cuando se
resolvió el asunto entre nosotros.
Si no cumplimos con todas las normas anteriores, usted no tiene que pagar los
primeros $50 de la cantidad en cuestión incluso si su factura es correcta.

Sus derechos en el caso de estar disconforme con las
compras de su tarjeta de crédito
Si usted está disconforme con los bienes y servicios que adquirió con su tarjeta
de crédito, e intentó de buena fe corregir el problema con el comerciante,
puede tener derecho a no pagar la cantidad restante adeudada de la compra.
Para hacer uso de este derecho, todo lo que se indica a continuación debe
ser verdadero:
1. L a compra tiene que haberse efectuado en el estado en el que reside o
dentro de las 100 millas de su domicilio de correo actual, y el precio de la
compra debe haber sido superior a $50. (Nota: ninguna disposición anterior
es necesaria si su compra se basó en un aviso que le enviamos por correo
a usted, o si somos los dueños de la empresa que le vendió los bienes
o servicios).

2. Usted debe haber utilizado su tarjeta de crédito para la compra. No califican
las compras efectuadas con adelantos de efectivo de un cajero automático
(ATM) o con un cheque con acceso a su cantidad de tarjeta de crédito.
3. U sted todavía no debe haber pagado la totalidad de la compra.
Si cumple con todos los criterios anteriores y usted aún está disconforme con
la compra, comuníquese con nosotros por escrito al domicilio de Atención
al Cliente que se indica en su estado de cuenta de facturación. Mientras
investigamos, se aplican las mismas reglas a la cantidad disputada según se
trató arriba. Luego de finalizar nuestra investigación, le informaremos nuestra
decisión. Acto seguido, si creemos que usted adeuda una cantidad y usted no
paga, podemos reportarlo como atrasado.
Copyright © 2020 JPMorgan Chase & Co. Todos los derechos reservados.

Acuerdo De Arbitraje

Por Favor, Revise los Efectos Importante en sus
Derechos Legales
Este acuerdo de arbitraje establece que todas las disputas entre usted y Chase
deben resolverse mediante ARBITRAJE VINCULANTE cuando usted o nosotros
decidamos presentar o derivar una disputa a arbitraje. Al aceptar este acuerdo
de arbitraje usted RENUNCIA A SU DERECHO A ACUDIR A UN TRIBUNAL (salvo por
los asuntos que puedan llevarse a un tribunal de demandas de menor cuantía).
El arbitraje se realiza DE FORMA INDIVIDUAL, por lo cual los pleitos de acción
de clase (Class Action) y los procedimientos similares NO estarán disponibles
para usted.
USTED TIENE DERECHO A RECHAZAR ESTE ACUERDO DE ARBITRAJE, PERO SI
DESEA RECHAZARLO, DEBE HACERLO SIN DEMORA. Si usted no rechaza este
acuerdo de arbitraje dentro de 60 días de la apertura de la cuenta, de la manera
que se describe a continuación, entonces:
• En el arbitraje, sus derechos serán determinados por un ÁRBITRO NEUTRAL y
NO por UN JUEZ NI UN JURADO.
• Los procedimientos de arbitraje son más simples y más limitados que las reglas
que se aplican en un tribunal.
• L as decisiones del árbitro están sujetas a una REVISIÓN MUY LIMITADA POR
PARTE DE UN TRIBUNAL.
Si usted no rechaza este acuerdo como se describe a continuación dentro de
60 días de la apertura de la cuenta, usted o nosotros podemos elegir resolver
cualquier reclamación mediante arbitraje.

A los fines de este acuerdo de arbitraje, “usted” incluye cualquier cosolicitante o
usuario autorizado de su cuenta, o cualquier persona vinculada con usted o que
presente una reclamación a través de usted; “nosotros” incluye a JPMorgan Chase
Bank, N.A. y Chase Bank USA, N.A., todas sus compañías matrices, subsidiarias,
afiliadas, sucesores, predecesores, empleados y personas o entidades
relacionadas con la misma, y todos los terceros que son considerados agentes o
representantes nuestros en relación con la cuenta, o el asunto de la reclamación
o la disputa en cuestión.
Todas las reclamaciones o disputas entre usted y nosotros que se relacionen de
cualquier manera con su cuenta, cualquier cuenta previa, su Contrato de Tarjeta
de Crédito con nosotros (incluida cualquier enmienda futura), cualquier Contrato
de Tarjeta de Crédito previo o nuestra relación se denominan “reclamaciones”
a los efectos de este acuerdo de arbitraje. Las reclamaciones incluyen, por
ejemplo, reclamaciones o disputas que surgen o se relacionan de cualquier
modo con transacciones que involucran su cuenta; cualquier interés, cargo
o tasa que se cobre en su cuenta; cualquier servicio o programa relacionado
con su cuenta; cualquier comunicación relacionada con su cuenta; y cualquier
informe de cobro o crédito de su cuenta. Las reclamaciones también incluyen
reclamaciones o disputas que surgen o se relacionan de cualquier modo con
materiales publicitarios, o la aplicación, la aprobación y el establecimiento de
su cuenta. Las reclamaciones están sujetas a arbitraje, independientemente de
que estén basadas en contrato, daños y perjuicios, estatuto, regulación, derecho
común o equidad, o si procuran remedios legales o en equidad. Todas las
reclamaciones son sujetas a arbitraje, independientemente de si estas surgieron
en el pasado, puedan existir actualmente o puedan generarse en el futuro. El

arbitraje se aplicará incluso si su cuenta está cerrada, ha sido vendida o fue
asignada; usted nos paga la totalidad de cualquier deuda pendiente que deba; o
se declara en quiebra. En caso de que su cuenta sea vendida o asignada, nosotros
conservaremos nuestro derecho a elegir el arbitraje de las reclamaciones que
usted haga y usted conserva su derecho a elegir el arbitraje de las reclamaciones
que nosotros hagamos.
• Si usted está cubierto por la Ley de Préstamos para Militares, entonces no
quedará vinculado mediante este acuerdo de arbitraje y, en la medida que
lo requiera la Ley de Préstamos para Militares, ninguna disposición de este
acuerdo se considerará una renuncia al derecho de recurso legal conforme a
cualquier disposición de otro modo aplicable de la ley federal o estatal.
La única otra excepción al requisito de arbitraje es que usted tiene derecho a
presentar una reclamación ante un tribunal de demandas de menor cuantía,
en lugar de resolverla mediante arbitraje, si la reclamación corresponde a la
jurisdicción de ese tribunal y se presenta a nivel individual.
Si usted inicia una reclamación mediante arbitraje, no se aplicará a esa
reclamación ningún cambio en los términos de este acuerdo de arbitraje que se
efectúe después de que recibamos su reclamación.
La Ley Federal de Arbitraje (Federal Arbitration Act, “FAA”), Título 9,
Artículos 1 et seq del Código de los Estados Unidos (United States Code, U.S.C.)
rige este acuerdo.

¿Puedo yo (el cliente) rechazar este acuerdo de arbitraje?
Sí. Usted tiene el derecho a rechazar este acuerdo de arbitraje si nos lo notifica
dentro de 60 días de la apertura de la cuenta. Debe hacerlo por escrito,
estipulando que usted rechaza este acuerdo de arbitraje e incluyendo su
nombre, número de cuenta, dirección y firma personal. Debe enviarnos su
notificación por correo postal a P.O. Box 15298, Wilmington, DE 19850-5298.
No se aceptarán ni tendrán vigencia las notificaciones de rechazo
enviadas a cualquier otra dirección, o enviadas por correo electrónico o
comunicadas oralmente.

¿Qué sucede con los pleitos de acción de clase
(class action) o acciones representativas?

A veces, ciertas personas interponen demandas en representación de otras
personas en situaciones similares. Esto se denomina un pleito de acción de clase
(Class Action). Los pleitos de acción de clase (Class Action), otros procedimientos
representativos similares y la consolidación de reclamaciones (salvo de
demandantes de la misma cuenta) no están disponibles bajo este acuerdo de
arbitraje. Las reclamaciones sujetas a arbitraje procederán de forma individual
solamente. Además, usted no podrá unir sus reclamaciones con otras personas
de otras cuentas en el arbitraje; cada persona debe arbitrar sus propias
reclamaciones por separado.
A MENOS QUE USTED RECHACE ESTE ACUERDO DE ARBITRAJE, USTED Y
NOSOTROS RENUNCIAMOS AL DERECHO DE IMPONER O PARTICIPAR EN UN
PLEITO DE ACCIÓN DE CLASE (CLASS ACTION), O CUALQUIER PROCEDIMIENTO
REPRESENTATIVO O CONSOLIDADO EN UN TRIBUNAL O EN ARBITRAJE.

El árbitro no tendrá autoridad para considerar cualquier reclamación como un
pleito de acción de clase (Class Action) u otro procedimiento representativo
similar, ni tampoco tendrá ninguna autoridad para consolidar reclamaciones
presentadas por demandantes separados (salvo demandantes de la misma
cuenta). Para ser claros, esto significa que el árbitro tampoco tendrá autoridad
para otorgar laudos para el beneficio o en contra de cualquier persona que no
sea la parte nombrada. Si estos términos que prohíben pleitos de acción de
clase, representativos o de consolidación se consideran legalmente inexigibles
por cualquier motivo con respecto a una reclamación, la reclamación debe
procesarse mediante litigio en tribunal en lugar de hacerlo mediante arbitraje.

¿Cómo funciona el arbitraje?

El arbitraje es diferente de una demanda en un tribunal estatal o federal. El
arbitraje es llevado a cabo por organizaciones privadas que se especializan
en resoluciones alternativas de disputas y ante un árbitro neutral en lugar
de un juez o un jurado. Generalmente, los procedimientos de arbitraje son
más simples e informales que los procedimientos de tribunal. Por ejemplo,
el descubrimiento de pruebas es más limitada en el arbitraje que en un
tribunal. Además, las decisiones del árbitro están sujetas solo a revisiones
limitadas por parte de un tribunal. Como se analizó anteriormente, es posible
que determinados derechos que usted pueda tener ante un tribunal no estén
disponibles en el arbitraje. Al mismo tiempo, en el arbitraje, usted tiene derecho
a obtener un reembolso de los honorarios de los abogados de nuestra parte del
mismo modo que en un tribunal.
Bajo este acuerdo de arbitraje, la parte que presenta una reclamación debe
seleccionar a Judicial Arbitration and Mediation Services (“JAMS”) o a la

Asociación Americana de Arbitraje (American Arbitration Association, “AAA”)
como el administrador del arbitraje. Usted puede obtener más información
sobre estas organizaciones por internet, en las direcciones que se proporcionan
a continuación. Cada una de estas organizaciones aplicará el código de
procedimientos que esté vigente al momento de presentar la reclamación que
origina el arbitraje. Si hubiera un conflicto entre el código de procedimientos
y la presente disposición sobre arbitraje o cualquier sección de este acuerdo,
la presente disposición sobre arbitraje o este acuerdo prevalecerán. Si JAMS
o la AAA no pueden o no están disponibles para oficiar como árbitros en
la reclamación por cualquier motivo, el caso será arbitrado por un árbitro
neutral, el cual será elegido por acuerdo de las partes (o, si las partes no
llegan a un acuerdo, será elegido por un tribunal de conformidad con la Ley
Federal de Arbitraje).
Un solo árbitro designado por el administrador del arbitraje tomará una
decisión respecto de la reclamación en virtud de la ley aplicable. El árbitro
quedará vinculado por los términos del presente acuerdo de arbitraje. El
árbitro tomará decisiones respecto de todos los asuntos, salvo los asuntos
relacionados con el alcance, la capacidad de cumplimiento, la interpretación,
la formación y la validez de este acuerdo de arbitraje que serán decisión de un
tribunal. El árbitro respetará todas las reclamaciones de privilegio reconocidas
por ley. Sujeto a la prohibición de procedimientos de clase, representativos y de
consolidación establecida anteriormente, el árbitro tendrá el poder de otorgar
a una parte cualquier resarcimiento por daños o perjuicios u otra reparación
que la ley aplicable otorgue. Es decir, una parte tendrá derecho a recibir en el
arbitraje cualquier resarcimiento por daños o perjuicios u otra reparación que

podría recibir si prevaleciera en un procedimiento de tribunal como individuo.
Ningún laudo o decisión del arbitraje tendrá un efecto preventivo sobre asuntos
o reclamaciones de procedimientos subsecuentes más allá de la reclamación
en cuestión. La autoridad del árbitro está limitada a reclamaciones entre usted
y nosotros, y el árbitro puede otorgarle resarcimiento por daños o perjuicios u
otra reparación solamente a usted, pero no a nadie más ni en representación
de alguien más.
Si bien según algunas leyes es posible que tengamos derecho a un reembolso de
los gastos y honorarios de los abogados si prevaleciéramos, nosotros acordamos
no solicitar dicho reembolso.
Si su reclamación es por $10,000 o menos, usted puede elegir si el arbitraje
será realizado solamente sobre la base de documentos, mediante una audiencia
telefónica o en una audiencia en persona. Cualquier audiencia en persona
tendrá lugar en el distrito judicial federal que incluye su dirección al momento
de presentar la reclamación, a menos que las partes acuerden otro lugar.

¿Es definitiva la decisión del árbitro? ¿Hay un
proceso de apelación?

La decisión del árbitro será definitiva y vinculante para las partes. El laudo del
árbitro consistirá en una declaración escrita que establecerá la disposición de
cada reclamación. A solicitud de cualquier parte, el árbitro también brindará una
explicación por escrito de los resultados esenciales y las conclusiones en las cuales
se basa el laudo.
Cualquiera de las partes puede presentar una apelación por escrito al
administrador del arbitraje en un plazo de 30 días después de que se emita

el laudo. La apelación procederá frente a un panel de tres árbitros neutrales,
designados por el mismo administrador del arbitraje. Ese panel considerará
todos los asuntos legales y reales de nuevo, y tomará todas las decisiones y
otorgará todos los laudos por voto mayoritario según los documentos y el registro
de arbitraje sin una audiencia. La Ley Federal de Arbitraje regirá cualquier
revisión realizada por un tribunal. Cualquier laudo de arbitraje definitivo será
vinculante para las partes en el proceso y ejecutable por cualquier tribunal que
tenga jurisdicción.

¿Quién pagará los costos?

Nosotros pagaremos todos los costos que tengamos la obligación de pagar
de acuerdo con las normas de procedimiento del administrador del arbitraje.
Incluso si no se nos exigiese de ninguna manera, le reembolsaremos a usted
hasta un máximo de $500 por cualquier gasto inicial que haya pagado por
la presentación de la reclamación ante arbitraje. También pagaremos los
honorarios del árbitro y del administrador del arbitraje durante los dos
primeros días de cualquiera audiencia. Si usted gana el arbitraje, nosotros le
reembolsaremos los honorarios que haya pagado a la organización encargada
del arbitraje o al árbitro o a ambos. Cualquier otro gasto será asignado de
conformidad con las normas del administrador del arbitraje y la ley aplicable.
Si considera que no puede pagar ningún gasto que debería pagar usted
al administrador del arbitraje, usted puede solicitar que le paguemos o le
reembolsemos a ellos, y consideraremos su solicitud de buena fe.
Usted puede representarse a sí mismo durante el arbitraje o puede ser
representado por un abogado. Excepto según lo descrito anteriormente, usted
será responsable de los costos y honorarios de sus propios abogados.

¿Cómo puedo yo (el cliente) presentar una
reclamación de arbitraje?
En JAMS (800 352-5267 o jamsadr.com) o en AAA (877 495-4185 o www.adr.org),
pueden obtenerse las normas y los formularios, y pueden presentarse las
reclamaciones. Estos dos administradores poseen reglas particulares en el caso de
arbitraje iniciado por un consumidor.
Copyright ©2020 JPMorgan Chase & Co. Todos los derechos reservados.

CFB00839

